IN THE UN

~6952

STATES SUPREME COURT
Dockef No*

N RE AJ am

Pelleiier

Supreme Court, U.S.
FILED

JAN 0 7 2021

Pef if some r

OFFICE OF THE CLERK

PETITION FOP EXTRAORDINARY WRIT
HABEAS CORPUS

Tn:

Tiie Honorable Tysiiices Of This Courf

Comes now the Petitioner j Adorn Pelletier ^ proceed mo
Sui Juris , pursuant to Code 22 U.S.C. § 1651 (a) , §2241 ^ or
225N (q) i praying this court will entertain this petition tor
Ihe relief sought .

RECEIVED

i

JAN 2 2 2021

Quesffons
Questions

Presented

Concerning Writ

1) Does the exceptional circumstances within ihis Writ reach
the level required tor
Court to use Its discretionary
powers ?
2) Does ignorance of the law s bar Petitioner from having Right
to be Heard , when a Miscarriage of Justice has occurred ?
i) When a Petitioner can show innocence was overcome by
Constitutional violations x does Petitioner have Right to he
Heard in post conviction proceedings f
Questions Concerning Actual Innocence
and Constitutional Violation C l a Inn s
4) Was defense counsel Ineffective for failing to use evidence
of innocence in closing argument f
5) Was defense counsel Ineffective for failing to have trial
court weigh trustworthiness of Hearsay testimony ?
b) Did trial court deprive Petitioner 6+hAmend. Right to
present defense ?
7) Do police violate H^ Amend, by employing citizen to take
alcohol to mans home \ get him drunk * and then question
Kim about victim
?
8) Was defense counsel Ineffective for failing to object to
collection and use of false story f
4) Was it Prosecutor Misconduct x when trial Prosecutor used
specific statements from false story x to convict
Defendant ?
I0) Does all Appeal and Habeas courts use of false
statement^as overwhelming evidence i to deny appeals
and Habeas Corpus , deny Petitioner of Due Process ?

2

Questions Presented

Cont.

11) Did The trial Prosecutor commit Fraud Upon The Court ?
12) On ce a Prosecutor commits Fraud Upon The Court in a state
criminal trial x has Malicious Prosecution occurred ^ and
is the trial void ?
13) Was defense counsel Ineffective for failing to alert
Court to prosecutoral Fraud Upon the Court ?
M) Was defense counsel Ineffective for deliberate!y hiding
newspaper article that prejudiced Defendant's Trial ?
15) Did trial Court deprive Defendant fair trial by
failing to inquire into jury exposure to prejudicial
news paper ?
16) Upon consideration by courts for Habeas t is Petitioner
entitled to claim of Newly Discovered Evidence when
defense counsel withheld prejudicial item from
Petitioner f
17) D oes K trial strategy ‘ protect defense counsel from
Ineffectiveness s when counsel deliberately protected
the prosecutions case from presenting harmful
Witness f
IS) Was defense counsel Ineffective for falling to object
to Prosecutor failing to establish authentication of
DM*A. blood withdrawling f
H) Is defense counsel Xneffective for failing to object
to

Dog Handler

as expert witness

3

?

LULQEPARTIES
1. Petitioner y Defendant
Adam Pelletier 1006145
address
Sussex U Stcite Prison
24927 Musselwhite Drive
Waver I y i VA 23841
1-

Respondent ,
address

\

Att.&en. AWft Herring

900 E. Main St.

3.

Lead Defense Counsel i
address
P.O.Box 2m

4.

Defense Counsel
address \

5.

trial Prosecutor

address
6.

Trial Tudye
address x

\

i

,

Richmond 4 \/A 23214

T. Lloyd SnooR
Charlottesville v V/\ 22402

Fletcher

HartCraider

Don Short

■John

R. Cullen

H

TABLE OF CONTENT
Cover
Pq, 1
Heading
Pgt 2 "3 Questions Presented
Pg, 4
Lfsi Of Parties
pq% 5 Table Of Content
Pg.6
Appendix Items
Pa ,1 Const it ut'ional Provisions
Citation of Reports
PgJO~)l Turisdicticn / Note to the Court
Pq, 12-13 Affidavit of Innocence
Pq, 14
Statement of the Case
Pq.l5~27 Present Petition

s

APPENDIX

ITEMS

~Ex.l TnPa* 160
Officer Mckay
- Ex. 2 Tr Pg. 161
"Ex. 3 Tr.Pa.BS^
Dorfhey Pelletier
-Ex. 4 “ 12 Tr. P^ 590-59 8 "
“Ex. 13 Investigators Note Of RtT. Harry
-Ex. W~IS Tr.fy. 690-69/ ft.T. Harry
"Ex* 16 Tr,P<jt 177 Penny Redeemer
~Ex> 17- IS Appeal Jr. Pg. 168-169 M icheal Taylor
' Ex. 19 Tr,Pg. 121 Darrell Meadows
“Ex. 20 appeal Tr.PgWl Prosecutor sTudge
"Ex. 2) "23 Tf.P^. 2It-216 State Pathologist
-Ex. 2*1 Appeal TrTg< 61 Buck Gardner
-Ex. 25 Appeal Tr.Pg. 82 TnW Tud^e
'Ex. 26 Appeal Tr* Pg. 83 Prosecutor
' £*.27-28 Appeal Tr.Pg. 121-122 Buck Gardner
- Ex* 29"30 tiewspaper Article
~ Ex. 3/ Certificate Of Analysis
' Ex. 32“33 Appeal Tr.Pg. 33-34 Voir Dire Of Gardner
' Ex 3H - 36
Sentencing Order x Louisa Circuit Court
- Ex 37 Order <?f Dismissal x 4^ Circuit Court Appeals
"Ex 38
Order pf Dismissal x {J>S, Dis. Ct. Western Dis.Of VA.

CONSTUTIONAL
“
'
~
"
~
"
~
*“

Aciual Xnnocence
Avfhenficafion Of Evidence
Due Process
Ends Of Tusfice
Fraud Upon The Courf
Hearsay Rule
IneffecHveness Of Counsel
Malicious Prosecufion
Miscarriage Of Tusfice
Alewly Discovered Evidence
Prosecufor Miseonducf
Righf To Be Heard
- Righf To Presen f Defense
- Seizure Of Sfafemenf

7

provisions

CTTATTON OF RFPnRTS
- Sen+«ncin9 ; CossWs Cfiol-8113.CROI-SZOI.OMHI!?, CR0KM
Louisa Co. Cfr. Cf. v /Vov. 4 , 2002
— Appeal | Pelle+ier v Com. 42 Va. App. 406 (lOW) )
Virginia Ci. of Appeals % Denied on Feb. JO (2004)
Appeal j Rec.No. 040553
Virginia 5up. Ci. ,
Denied on

Tune 4,(2004)

“ Habeas J Case No, C10500HS20~00
Dismissed on Tuly 22(2005)
Louisa Co, Cir, CL
Habeas !i
Virginia Sup. Ci. l Dismissed on /Aar 21 (2006)
~ Habeas ;
Civil Aci.No. 7:06-cv- 00522
U,S. Drs. Ci. Wesfem Pis. of VA. , Dismissed on May 2 (2007)
- Habeas |

07-6245
4+h Cir. C+. of A ??' \ Dismissed Mar II (2001)

~ Ceriiorari

UtS. Sup. Ci.

Dismissed on

Tune 4

( 2002)

~ Mofi&n io Void Tudgmenf for Fraud UponThe Couri j Cose No. CU2000HO"00
Dismissed on Tuly 24 (2013)
Louisa Co. Cir. Cf
~ AAoficn fo Void Tvdymenf Appeal \ Rec.No, 131469
Virginia Sup, Cf.
Dismissed on May 6 (2014)
” Mof ion fo Void dudamenf for Fraud Upon line Courf [
Case f/o. I'-ii-CV-OOSW ,
Dismissed on Tan 31 (2014)
US. D/V, Cf. Wesfern Dis. of VA.

g

CITATION (IF RFPnRTS
“ 2^ Habeas ' Rec. No- 150525
VA. Sup* Ct, , Dismissed on

Con+*

Tdy 2 (2015)

- 2rtJ Habeas \
Civil Acf./Vo. 7:15-cv- 00H27
U.S. Dis. Cf. Western Pis. of )/A> \ Dismissed on April 12 (2Olb)
~~ Refiled 2Ad Habeas J Civil Acf No. 7:jb~cv-00322
U,5. Dls. Cf Vlesfern DiV. o-C VA* * Dismissed on JAoy 25 (20f7)
-

C.O.A, ;
M>. I7-67H2
H’1* C\r. C^.of Appeal N
Dismissed on Och 2b (2017)

-

Application For Successive Habeas J No. I7-HH5
5+h Cir.Ct. of Appeal , Dismissed on 3an, 25 (2012)
Exfr* Ordinary Writ- ,

# 7:26 -cv-@0 Lj^Q MFU- R$G

U . 5\ Oix. Of* Wesfern OCs. of VAon Avy. 13 ,(1020)

9

Dismissed

TURIS DICTTON
This- Wrif is filed fo serve the ENDS OF TUST2CE ,

All avenges for redress have been attempted and denied . This is
Petitioner s lost chance , an innocent manx to seek his freedom. The
evidence within was Known at Trial and was overcome by many egregious
Constitutional violations . Petitioner assert he should not suffer at
the hands of procedural bars or Rules because he did not understand
the law , or Know how to find and present the violations upon his firsf
Habeas , Mot understanding the law x must give way to ACTUAL
INNOCENCE and must not stop superior court from correcting a grave
MISCARRIAGE OF JUSTICE . Ignorance cannot be the reason why an
innocent man rots in prison,

RULE 20
Petitioner made application to U, S, Pis. Cf Western Ois.otVa,
and the Writ was dismissed on Aug,13,2020 ^ see attached Order in
App. #• 38 . A sentencing Order is also attached , see App.tt^~-M .
Petitioner has filed every Writ that can be filed in seeking redress v
see Citation Of Reports page
As explained above x the Petitioner was ignorant to the law and
That ignorance allowed all post conviction courts to bar all Writs >
never hearing the claims of ACTUAL INNOCENCE x PROSECUTOR
MISCONPUCT% FRAUD UPON THE COURT x DENIAL TO PRESENT PEFENSE n
and numerous INEFFECTIVE ASSISTANCE OF COUNSEL claims. It is
c* Crime in itself not to hear this Writ and this Court Can use
iTs appeallate powers to correct a grave MISCARRIAGE OF
TUSTICE by all previous courts in barring Petitioner's Writs ,
Petitioner asserts that his Claims wifhin are exceptional and
warrent this Courts discretion .
Petitioner seeks Evidentiary Hearing in this Court or the
U>£, Pis, Court so his Claims can be validated and ruled upon ,

10

NOTE

TO THE COURT

Petitioner will make this Writ out to match the questions
with fhe related C la i/ns . Questions 1^2^ and 3 Can only be
answered upon conclusion of review of the fads within .
Petitioner will moke his argument for these quesfiofis as if
"H*»e Court has reviewed all Claims .
Claims One and Two
are linked to show Actual Innocence , The following Claims are
the Constitutional violations that overcame the evidence of
innocence «
Quest}on 10 * in Claim Three , deals with all the courts
that ruled on Petitioners state appeals ond first Habeas .
This issue is a major reason why previous courts were alt in
error ond now allows for this Courts appeaHate jurisdicfion«.
Question 16 v in Claim Five x deals with the federal court's
response to Petitioner's 2n<* Habeas . Their response also allows
for this court to use it '5 appealIate jurisdiction to correct errors ,

II

Affidavit

of

I rmo cen c e

X , Adam Pellefier , swear on (bods love and jvsfice fhaf
fhis Affidavif of Xnnocence is frue and accurafe*
X (grew up as a trouble maker, X had no one* fo correct- me.
pasf 10 years old, X've. done a bf of sfupid sfuff . X bcoke,
info homes’ . X've s’foie . X V£ sold drvqs . But X am Oof o,
killer. Akiiee war my friend , X Knew her since X was 7 or
% years old. Hell, she is fhe one % lorf my vicginify fo af
II , We parfied and ho,d a Jof of for . She was awesome Amiee's fafher could nof sfond me , nor would he \ef
fmiee hang around me t W& would sf)H find ways fo haogouf.
We were S'fill friends all fhose years infer and we wer-e
sfill having sex fogefher. We aid whaf we could fo keep
her dad from knowing,
The nighf Annie e died , we- were fvgefher an hour
before \ hawing sex riq'hf by my house . When she leff,
fh#f war fhe lasf fjme x seen her. X had been drinking
q bf fhaf n/ghf and X Knew X could nof house- been able ft>
walk her home and Make if back . Tr&m my house ft? hers
was abouf a 2,0 minufe walk , On one poihf , x wish X would
haue walked her home , buf fhen we both flnighf haue been shof.
Evidence af fr/al showed s’he way in an argymenf
wifh her dad , 15 nnlnufC? before a gun sh&f Was heard.
X know In My hearf , fhaf ar^unnenf was abouf her being
wifh me and her disobey try hinn . Xf'V fhe only fhing X
con fhink of ,
X Know why fhe police forgeffed me and X know nous
fbaf X should hove came, forward ctbouf me and Amiee^
My dislike for police , fhe hafe X hod foward fhe m , preuenfed
fhaf. X had a way of makjrig fhings worse for Myself* A
Couple of days Infer , X Made Some horrible sf&femenfs
abouf Ann tee , fo people X fhoughf were friends ♦ Even
fhoutjh whaf j: said was proven false x X should nof haveSaid such fhings. Being drunk is no excuse ,

) of 2

12

APPide^rh. Cooi->

X aJMii- fp befcf an
^hi-b qt~ ±)Mes , boT X
■friend . T did Aob Hill her,

idtob (i a dr^nK , <2 piece
a of a Hiller. ,4/v]/^
W& r ,Aiy

<£

AtaAi Peliebter I006IHS

Pate

Red Onion £bo<ie Prjron
tO, Sex )°tP<?
Pour cl
VA "2^2 ~7f

1^2

13

z]

STATEMENT OF THE CASE
The Victim v Arniee hheadows x and Defendant/ Petitioner v Adam
Pelletier , were residents ot Louisa County VA« On Nov, 1212000, the
Victim and Defendant were together until around VIS pm and she walked
home . At ID: IB pm, an argument was heard between the Victim and her
father , Parrel! Nieadows , At 10'30 pm, a gun shot Was heard* The next day
her body was found dead,wihh a gun shot wound s in Lake Louisa .
After questionable investigation , Pelletier was arrested on Nov,17,
2000, and charged with murder, A few m&ftths later the charges were
upgraded to Capital Murder, Hope , and 2 firearm charges 4 Pefendart t went
to trial on Tune^3 5 2002 x with Court appointed lawyers s Defendant was
found guilty by a jury on Tune, 10,2002, and sentenced by the judg e on
Nov, H , 2002 , to serve 2 Lifes and 5years „
Petitioner has been through appeal and Habeas . Every route has
been fried in seeking redress,

IH

PRESENT

PETITION

Argument For Questions 1V2»B.
Ql. Does +he exceptional circumstances wrfhin ++»fs Writ reach
the level required tor this Court to use its- discretionary
powers ?
1
Petitioner will argue these questions as if the Court has
reviewed all fhe Claims within. In doing this , he must ask this
Court i IS NT IT EASY ? Isnt it easy to see that what has happened
to Petitioner x and still is , is the most heinous thing that can happen
to an American Citizen ? The facts within cannot he taken lightly and
such violations demand immediate action .
2
Are these circumstance exceptional f There beyond that l
They show and prove a court appointed lawyer aiding a malicious
prosecution by a prosecutor x so bent on a conviction , he deliberately
fabricated evidence to fhe judge. Petitioner can show he is innocent,
he can show he was not the last person to see the victim . He can prove
without any doubt, there Was no rape „ How can the -facts within
not be exceptional.

3

*

Q2, Poes ignorance of the law , bar Petitioner from having Right
to be Heard x when Miscarriage Of Tusfice has occurred ?
The Petitioner never had any knowledge of law before trial and it
has taKen almost 20 years for him to be able to present evidencex
not only of his innocence x but of how that evidence was overcome by
so many Constitutional violations. His past ignorance of the law should
not stop this Court , or any court x from taking action to stop the continued
Miscarriage Of Tustice . Prohibitions and all procedural bars , due to
ignorance of the law , must give way to innocence.
Petitioner s Right to a fair trial Was completely shut down . If
he had any knowledge of law x he Would have fired the court
appointed lawyer and represented himself. At least then he

15

Would have then stood a fighting chance , When your attorney is set
out to help the prosecution convict you ^ how can anything hut a
Miscarriage Of Justice happen ?

Q3. W, er

a Petitioner can show innocence was overcome by
Constitutional violation ] does petitioner have Right to be
heard in post conviction proceedings ?

5

Ther^ is caselaw saying
Newly Discovered evidence of actual
innocence overcomes the burden for courts to hear successive writs.
WHY does the evidence have to he newly discovered ? Shouldnt it
be x as long as the evidence is reliable^ and no Constitutional
violations exist x then what does it matter if it is old or new ?
innocence is innocence no matter if it Is old or new J Doesnt an
innocent man deserve to he Heard p
Claims One and Two clearly show Petitioner i§ innocent, The rest
show that Constitutional violations blinded the jury to Petitioners
innocence x well before trial even started . Such reliable evidence
Should grant him the Right to have his Writ Heard and that this
Court must use its appeallate jurisdiction to Correct all lower
Courts

dismissals.

CLAIM ONE
Fac+S

Poring trial x witnesses testified to a senes of events that
time ■‘lined the Pefenda nt being at home x while fhe Victim was shot
else where. These events are •
A disturbance occu rred af Defendants home and erfficer Was called
(App'Exl.Tr.Pf.160). Defendants brother was in the area and spoke With
fhe officer x ( App. Ex J Tr.fy J6I) . The Oefendanf testified thaf Victim
and him were together until jvsf before ^‘30 pm } when the Victim
walked home » Defendants mother testified that x Defendant s
brother left the Pelletier home around
and that

16

b oojre

Defendant came ioto thelright afterx (App. Ex . 3 Tr.Pg.BSQ), She further
testified that Defendant remained home N (App* Ex.4-12 TnPgs.
A neighbor of the Victim heard an argument between the Victim
and her father N Varrell Meadows s at 10 ‘15 pm , at her home which is
more than a mile from Defendants A (App* Ex» ^3 Investigators Notes
and £*, It ond 15 Tr. Pgs. 6^0-btl ). The neighbor stated * at the end of
fbe argument s Darrell Meadows was Screaming her name,
0
hrwther witness testified 'Bitf'f she heard a gunshot at I0t30pn\ N
(App. Ex. Tr.Pg. 177), 15 minutes after +he argument.
I
Nothing presented at trial disputed the testimony above N except
the false s+ory made up by Defendant ( Claim 3 ) » This testimony
received no attention once Known „ Defense counsel Snook failed to
make this evidence the main issue for the jury in closing argument *

ARGUMENT
QH, Was defense counsel Ineffective for failing to use evidence
of innocence in closing argument ?
1
Defense counsel Snook failed to utilize the testimony to show that
the Defendant was not the last person to see the Victim and that he Was
home when the Victim was shot. To not use evidence of innocence in
your closing argument is the most incompetent and Ineffective thing
a defense counsel can do , This clearly prejudiced the Defendant s
-trial and deprived him of his b^Amend, Right .

Cl Am TWO

3

Facts
During trial, defense sought to introduce testimony by Micheal
Taylor 1 a friend of the Victims , Taylor was to testify that, two days'
prior to her death {the Victim told him she had been having sex for
months with Defend&nf , (App. Ex. 17~ 1$ Tr*Pg> Appeal I6$~lbt)* On
objection by the prosecutor {the court ruled it Hearsay and y
inadmissible . Taylors testimony was to refute Darrell Meadows
17

testimony that ^ his daughter was chaste and no relationship existed
between her and Defendant y ( App> Ex.N Tr.fy. 121).
Taylors testimony was supported by the states pathologist
testimony fhaf, Victims body bore no signs of rape/vaginal
trauma , ( App> Ex. 20-21 TnPg. 2IH-2I6).
5

SnooK never asked the court to weigh the trustworthiness of
Taylors testimony to overcome the Hearsay Rule .

ARGUMENT
Q5

Ib

Was defense counsel Ineffective for fading to have trial court
Weigh trustworthiness of Hearsay testimony f
When Petitioner looked up Hearsay in the law library {he immediately

came across so much case Inw^ where the trustworthiness of Hearsay
Was weighed i so the testimony could be allowed. Lawyers are to be
ready for objections they know will come and howto defend the
evidence < If Petitioner N a prisoner , can find this caselaw x then
Why didnt counsel ? Snook never cared enough to defend the
testimony from objection , so that the jury could hear testiimony
that clearly refutes the charge of rape and Darrell Meadows
testimony , Mot being ready for trial proves that counsel Was
ineffective and prejudiced Defendants trial , when the evidence was
discarded by the court.
Q6

17

Did trial court deprive Defendant

b+^Amend- Right to

present defense ?
/Ill judges ore to ensure that a Defendant receives a fair trial.
The -testimony of Taylor cut to the Very heart of defense . There is no
greater defense against rape than the Victim admitting to haVfng regular
sexual relations with Defendant. It was the only thing to refute Darrell
theodows testimony „ Without it xthe jury was allowed to believe that no
relationship existed between the Victim and Defendant < When the
trial judge denied Defendant the Right to confront witness , he dearly
denied him the Right to present defense *
Amend t

(8

CL/4IM THREE
IS

ID

Du fifty the investigation into the Victims death , the Louisa police employed
an acquaintance of Defendants^ Sean Lamb , to wear a wire , The police
advised Lamb to take alcohol { get Defendant drunk x then question him
about the Victim. Lamb did so and in an intoxicated state , the
Defendant made up a story about the Victim, Roughly put ] the Defendant
said t he met the Victim stooh her to a wooded area ^ got her naked,
smacked her ass , smacked her x hit her * pistol whipped her x viciously
raped her * took her out on a boat , and shot her , Killing her.
Defendant testified that the story was made up to make two
oTher people present laugh and to mess with Lambs head > The other
two individuals testified that they believe Defendant was joking .
The state pathologist testified that the Victims body bore do signs
of bumps > bruises s whelps x no pistol whipping , no vaginal trauma x
no violence whatsoever but a gun shot wound, ( App> Bv. 21-23
Tr.fy.2N-216 ),
The prosecutor picked out specific statements from the siory
to use as his basis for conviction . These same statements *
"X viciously raped her r\ and " X shot and Killed her \
or€ fhe same statements used by every Appeal and Habeas court
deny petitions x claiming overwhelming evidence. Defense
counsel never objected to the collection and use of the
story / statement.

ARGUMENT
Q 7.

Do police violate H+Mmend. by employing citizen to Take
alcohol to mans home ^ get him drunks and then question him

about Victim f
The Petitioner asserts that when
21
to do something for them v then that
standard as them . To intentionally
first before questioning him v shoW^

n

a citizen >s employed by police
Citizen is to be held to the same
take alcohol to§ give to a man
police coercion to obtain

information by overpowering Defendants self determination . Petitioner
asserts that to do this { even through citizen , violates the
Amend.
Q8. Was defense counsel Ineffective for failing fo object j-0
collection and use of false story f
Counsel should have studied case law to be prepared for trial .
11
Virginia has case low that deals directly with the collection and use of
false statement. Sadlyx a jury will rely heavily upon them, Police
coercion was apparent . Using alcohol to alter a mans state of mind
before questioning him ^ is plain wrong and counsel should have
objected to how the story Was collected. Even worse is the fact
that counsel, Knowing the story was false v still allowed the prosecutor
to use specific statements out of the story, Not objecting proves
counsel was Ineffective . The jury Was allowed to hear false
statements that made Defendant look guilty x prejudicing hfs trial,
Q4?. Was it Prosecutor Misconduct x when trial prosecutor used
specific statements from false story {to convict Defendant?
It is evident from the states pathologist testimony that the
!3
story was false , The prosecutor , Don Short x was aware of this. For
him to deliberately chosfeto use specific statements from the story t
shows he intentionally used false statements to convict, If it
wasnt intentional , then why didnt he use the rest of the story in
his closing argument ? This goes beyond the level of Prosecutor
Misconducts to the level of MalicFous Prosecution .
QlOi Does all Appeal and Habeas courts use of false statements,
as overwhelming evidence to deny appeals and Habeas Corpus- x
deny Petitioner of Due Process ?
L4,
The use of these false statement has prejudiced every Appeal and
Habeas petition that has been filed« Every court has used these
statements as overwhelming evidence N, Such fake statement should
not have prevented a fair Hearing on the Constitutional violations<

20

Petitioner never received a -fair Hearing for Appeal and Habeas
-(*o date . This clearly makes way for this Court to use its appeallate
jurisdiction to correct every Due Process violation to date x
see Citation of Reports.

CL A m FOUR

Facts
25
Trial prosecutor sought to introduce Blood Hound dog trailing evidence »
The Court stated, it would follow the standards ofx Epperly v Com,x22H
VA 2IH (I9B2) r One standard Being that the dog be placed on the trail where
evidence shows > the party to be trailed, had been t Dog handler , BvcK
Gardner , testified under Voir Dire {bat he followed a trail of Defendant
from where the Victims body was pulled from water to land s to
Defendants home„ Both prosecution and d&fense asked Gardner ,
What evidence he had that placed Defendant ah th€ place where the
dog trail started f Gardner stated, "X had none r\ ( App. Ex. 24
Appeal Jr.Pg. 67). Defense objected
ibe 'fes+rroony 4 stating the
standard had not been Met. fudge then asked {be prosecution to
specify wha{ evidence he had of Defendant being at that spotx because
4he court did not think the standard had been met { (App, Ex.25 AppealTp % 82),
%
The prosecutor then told the judge H misrepresentations of evidence
( App- Ex. 25 “26 Appeal Jr.Pg. $2-83 ). The prosecutors statements had no
evidence to support them . One of the lies was , that Defendant and Victim
went to the "pool scent area , but when testimony of ' pool scent"wets
introduced^ Gardner stated he did not do scent check of Defendant at
that spotx (App, Ex. 27-28 Appeal Jr.Pg. 121-122). The prosecutor made
up false evidence before witness testified that none existed.
11
the judge overruled objection and allowed testimony based Solely
on prosecutor's statements , (App• Ex. 25-26 Appeal Tr.Pg, 83~%{ ),
Defense counsel Snook denied fo object to misrepresentations,sjating
he Would address them on appeal 4 but never did,
21

ARGUMENT
Q IL 0id -trial prosecutor commit Fraud Upon The Court f
Case law Varies IlfHe as -ho what amounts to Fraud Upon The Court.
Lg
Petitioner understands it as a series of events l 4, A court officer ,
I. That deliberately fabricates evidence , and 3r Those fabrications
are relied upon to alter the trial.
If is all iooeasy to see from the transcript that the prosecutor
M
deliberately made fabrications to the judge to deceive the court into
allowing testimony to the jury. The prosecutors case depended on him
I in kin <3 Defendant to the "assumed "crime scene / Victim's dead bady\
to make him look guilty t thus altering the trial . The standards for
Fraud Upon The Court have been met.
Q 12. Once a prosecutor commits Fraud Upon The Court in a state
criminal trial \ has a Malicious Proseci/tion occurred x and is
the trial Void f*
To commit Fraud Upon The Court x means it is deliberate. To commit
\0
a Malicious Prosecution , the act must also be deliberate * Prosecutors
are under oath to only use the truth { not create false statements' of
evidence * His intent was to seek conviction at all cost, deceiving the
trial court and depriving Defendant of a Fair Trial. His actions
were deliberate and equal a Malicious' Prosecution <
Petitioner notes that when case law shows Fraud Upon The
Court v it shows that hearing void. In this state criminal case *
Petitioner demands the same . The trial Was altered by his deceit
therefore it is- void .

32

Ql3. Was defence counsel ineffective for failing to alert
Court to prosecutora! Fraud Upon The Court f
Defense counsel was protecting the prosecutions case and this
Claim further proves if. Snook Knew the prosecutor lied and denied to
alert the court to it. That in itself Is Fraud and proves he was
Ineffective , He further failed to raise the issue on appeal after

22

assuring Defendant he would . Allowing this to happen ^ allowed the
prosecutor to claim in his closing argument „ that Defendant Was present
at that spot/area and this links him to the Victims dead tody , This
prejudiced the entire trial because it is all false ! Counsel prejudiced
ibe trial and violated Petitioners
Amend*

CLAIM FIVE
Facts

33

Before trial in early 2002 > a local Louisa County newspaper v The
Central Virginian x printed a story by Irene Luck that told of the
upcoming trial and that a bullet found in Defendants home xx matched "
#ie one pulled from ihe Victims body , (App> Ex. 29~30 Article ). The
Division Of Forensic Science provided a Certificate of Analysis on

IH

DA arch ^ 19,2001, (App* Ex 31 ) ^ that stated 4-he bullet could not be
matched . This Certificate Was in an open casef ile with the court.
Defendant had to threaten Snook With a civil suit to obtain the
casefile . The paper was found within so Snook was aware of it.
At no time did defense counsel bring up {he paper and neither did ihe
Court . The question about prejuditee should have been asked of the
jury x as to the Louisa paper . The court did question them about a
Charlottesville paper*

ARGUMENT
QIt ytfas defense counsel Ineffective for deliberately hiding
newspaper article that prejudice Defendants trial ?

5

>b

There can be no more convicting evidence than a bullet found to
match . To print such a false claim » made Defendant look guilty to every
citizen that read the paper , Being that the paper and jury pool were
local , if is certain that they were exposed,
For Snook to intentionally hide this paper within the casefile and
not bring atieofion fa if \ shows he Was sabofaging Defendant $ trial * He
had a dvfy to protect Defendants character and trial • There can be no

23

question to Snooks Ineffectiveness and his betrayal prejudiced
Defendants entire trial ,

Yl

32

Q 15. Pid trial court deprive Defendant fair trial by fading to
inquire into jury exposure to prejudical newspaper ?
The judges who preside over criminal trials are to protect Defendants
Ri^ht toei fair trial and impartial jury. Here \ the judge inquired after
another paper before trial v so he was well aware of the presses presence ,
It is clearly obvious that the paper is prejudical and makes Defendant
loot guilty* The jury should have been questioned about the paper .
Petitioner asserts that this failure violated his Right t& a fair tried .
016. Upon consideration by courts for Habeas, is Petitioner
entitled to a claim of Uewiy Discovered Evidence when
defense counsel withheld prejudical item from Petifioner p
When Petitioner filed for a 2in<* Habeas and Successive Application
( see Citation of Reports) the federal courts stated Petitioner did not
deserve it under tlewly Discovered Evidence ) because defense counsel
is seen the same as Petitioner. HOW ? How can he be seen as
defense when he hid item that prejudiced the entire trial ? This
cannot be ! Counsel deserve no protection and Petit/oners Writs
should not now suffer * for what counsel did then , To deny the Writs s
is to deny Petitioner the Right to be Heard .

CLAIM SIX
Fact S

Y\

During Defedanfs jail time ( awaiting trial, he spoKe with one
AAark Stanley and he advised Defendant that the Louisa police hired him
sign a false statement against Defendant• In exchange the
prosecutors office would drop pending charges , Stanley agreed and
signed his name to a statement made up by lead detective xIKe King *
During opening statements x the prosecution mentioned Stanley s
2H

“testimony.
HO
Defendant fold S nooK to not say anything about Stanley, To let
him testify so the truth could be told about the detective hiring him
+0 lie . During knocks opening statement , he alerted the prosecutor
that it would be detrimental to the case \ If they put Stanley an
the stand - Doing +hf5 made the prosecution drop Stanley as a witness ,
Snook denied tv secure him as a witness to show police prejudice and
misconduct h the investigation .

ARGUMENT
Q 171 Does "trial strategy protect detense counsel tronn
Ineffectiveness v when counsel deliberately protected the
prosecutions case from presenting harmful witness *?
I)
For a lead detective to make up a false statement, for hired Witness
to testify to > proves prejudice and corruption within the investigation *
Defense counsels are given a lot of leeway for strategy x but some
moves are so stupid and harmful to the defense > they can only be
Called Ineffective * Protecting the prosecution's case goes beyond
Ineffective x to sabotage f
2
Stanley would have admitted to being hired to lie * He should have
been secured as a witness . The jury needed to see the investigators
were corrupt and ensuring Defendant look guilty. Being denied this
by SnooK \ prejudiced the trial. Protecting the prosecutor case also
prejudiced the trial . Petitioner asserts that in this case x trial
strategy \ does not protect counsel's Ineffectiveness 1 violating
the 6^Amend,

CLAIM SEVEN
FaC+S

B

At trial) D,N<A- evidence was introduced» f\f no time did the
prosecution present testimony to establish authentication of the
drawing of blood t labeling x sealing x ora Certificate of Blood
Withdrawl Form « The only testimony given t was of a detective issuing

25

warrant x putting samples in a coaler , and driving them to lab.
Code o f VA. §Lfb.2''3HI.2b*6x stafes that the person to seal dhe
vials shall complete the Cert. Of Blood Withdraw! Form , This must
be adhered to or the chain of authentication has failed .

ARGUMENT
Q 18. Was defense counsel Tneffecfive for failing to object to
prosecutor failing to establish authentication of
blood with drawling ?
44
Lay/ygrs are to Know the case law and Codes surrounding o
subject to be raided at trial - Failure, to be prepared for D.N. A.
evidence x when he knew it was to be presented proves defense
counsel was ineffective . Knowing the Code Would have validated
objection and objection would have altered the trial. Such failure
prejudiced the Defendants trial and Violated 6^Amend.

CLAIM EIGHT
Facts

IS

During trial x the prosecution sought to introduce Blood Hound Dog
Trailing testimony byway of detective Gardner. Under Voir Dire x
Gardner testified thdhe Was experienced and trained his own dog ,
That he was a member of dog trailing organisations in VA< and that
he never festified in a Circuit courf ( App. Ex* 32“33 Appeal Tp<
Pg, 33-34 ) „ Under no objecfion from Snook , Gardner was allowed
to testify as an expert •

ARGUMENT
16

Q 14. Xs Defense counsel Tneffective for failing to object
t& Dog Handler as expert witness f
Every expert is relied upon heavily by a jury t That is why € Very
witness , in criminal case s be mandated to produce$ Cert. concerning
their dog and self \ as to being certified in that field < This would
26

Verify expertise f Defense Counsel -failed to object to Gardners
-testimony as expert „ Presenting proper foundation for expert is
fundamental concept for all lawyers . Fending this only shows he
was Xneffective « Mot objecting prejudiced Defendants trial 4
by allowing detective tv testify as expert and violated Petitioners
6 ^ Amend,

Personal Note To Courf / Conclusion

H7

The Petitioner has clearly shown that defense counsel was
Working with the prosecution to ensure a conviction . No man should
be subject to a Court appointed lawyer sabotaging the defense,
Petitioner prays this Court can see the unjustice done and Will
take sfeps to remedy it ,
Respectfully SubmlHed
Adam Pelfefier lODbIHB
Red Onion State Prison

6
J <*o
Da^e

P, Or Box WOO
Pound t VA 24279

A copy has been forwarded to Respondent
at fbe address below,
VA.Afforney General
Richmond x VA
ROOE.Main St.

27

/L°'Z]
on 3- } to , £/

23219

